Department of Homeland Security
   Ofﬁce of Inspector General


         Consolidated Report on DHS' 

    Management of 2005 Gulf Coast Hurricanes 

          Mission Assignment Funding





OIG-09-89                                July 2009
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                             July 8, 2009

                                               Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the consolidated results of our reviews of DHS’ management of mission
assignment funding from the Federal Emergency Management Agency to the U.S. Customs and
Border Protection, U.S. Coast Guard, U.S. Immigration and Customs Enforcement, and National
Communications System. It addresses these agencies’ strengths and weaknesses in the management
of mission assignments for the 2005 Gulf Coast Hurricanes disaster relief efforts. The underlying
reports of these component agencies, which have resulted in this consolidated report, are based on
interviews with employees and officials of relevant agencies and institutions, direct observations,
and reviews of applicable documents.

We contracted with the independent public accounting firm of Regis & Associates, PC to perform
the reviews. The contract required that Regis & Associates, PC perform its reviews according to
guidance from the Office of Management and Budget and the Government Accountability Office. In
the underlying reports of the component agencies, Regis & Associates, PC identified areas where
each agency’s management of the mission assignments and funds could be improved. In addition,
they have identified five areas where action at the department level could improve the management
of mission assignments by its component agencies. Specifically, DHS needs to: (1) establish
procurement and contract monitoring standards; (2) enforce compliance with funds control policy
and procedures; (3) establish documentation standards and a retention policy; (4) establish a uniform
policy for managing accountable property; and (5) establish standards for reimbursement billing
processes. Regis & Associates, PC, is responsible for the attached independent accountants’ report
and the conclusions expressed therein.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust that this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.



                                             Richard L. Skinner 

                                             Inspector General 

  MANAGEMENT CONSULTANTS &
&
 CERTIFIED PUBLIC ACCOUNTANTS

                            S



                Independent Accountants’ Report on Applying Agreed Upon Procedures


Office of Inspector General
U.S. Department of Homeland Security
Washington, D.C.

We have performed certain agreed-upon procedures (the Procedures), as summarized in the
Objectives, Scope, and Methodology section of this report, related to mission assignment funding to
the U.S. Customs and Border Protection, U.S. Coast Guard, U.S. Immigration and Customs
Enforcement, and the National Communications System. These funds were allocated to the DHS
component agencies by the Federal Emergency Management Agency (FEMA) for the 2005 Gulf
Coast Hurricanes. This engagement consisted of reviewing selected management activities for
mission assignments issued through March 31, 2006 to these agencies for hurricanes Katrina
(August 2005), Rita (September 2005), and Wilma (October 2005).

The Procedures, which were agreed to by the Department of Homeland Security Office of Inspector
General, Office of Emergency Management Oversight, were performed to examine the expenditures
made in executing the mission assignments, and to evaluate the management of the mission
assignment process from origination to closeout.

This agreed-upon procedures engagement was performed according to standards established by the
American Institute of Certified Public Accountants, and guidance from the Office of Management
and Budget and the Government Accountability Office. The sufficiency of the Procedures is solely
the responsibility of the specified users of the report. Consequently, we make no representations
regarding the sufficiency of the Procedures, either for the purpose for which this report has been
requested, or for any other purpose. Our test procedures revealed department-wide internal control
weaknesses in five areas. These findings and the associated recommendations are presented in the
Results of Review section of this report.

We were not engaged to, and did not perform an audit, the objective of which would be the
expression of an opinion on the specified elements, accounts, or items. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come
to our attention that would have been reported to you.

This report is intended solely for the use of the Department of Homeland Security Office of
Inspector General, Office of Emergency Management Oversight, and should not be used by those
who have not agreed to the Procedures and taken responsibility for the sufficiency of the Procedures
for their purposes.


Regis & Associates, PC




        1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
Table of Contents/Abbreviations 




Executive Summary .............................................................................................................................1


Background ..........................................................................................................................................3


Results of Reviews................................................................................................................................6


A.   Procurement and Contract Monitoring Standards Across Component Agencies............................7 

B.   Compliance with DHS’ Funds Control Policy and Procedures .......................................................9 

C.   Completeness and Availability of Documentation Supporting Expenditures ...............................11 

D.   Management and Accountability of Property ................................................................................13 

E.   The Reimbursement Billing Process..............................................................................................16


Management Response and OIG Analysis ………………………………………………………..20


Appendices

Appendix A:         Objectives, Scope, and Methodology............................................................................21 

Appendix B:         Recommendations .........................................................................................................23

Appendix C:         Related Audit Reports ...................................................................................................25

Appendix D:         Management Response to the Draft Report ...….……………..……………………...26 

Appendix E:         Report Distribution .……………………………………..………………………….…33



Abbreviations

         CBP                     U.S. Customs and Border Protection 

         DHS                     U.S. Department of Homeland Security 

         FEMA                    Federal Emergency Management Agency 

         FPS                     Office of Federal Protective Service 

         GAO                     Government Accountability Office 

         ICE                     U.S. Immigration and Customs Enforcement 

         MRE                     Meal Ready-to-Eat             

         NCS                     National Communications System

         OIG                     Office of Inspector General 

         OMB                     Office of Management and Budget 





           Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Executive Summary 

Regis & Associates, PC, under contract with the U.S. Department of Homeland Security Office of
Inspector General, reviewed the management processes and internal controls of the department’s
agencies charged with implementing Federal Emergency Management Agency (FEMA)-issued
mission assignments related to the 2005 Gulf Coast Hurricanes disaster relief efforts. These
agencies include the U.S. Customs and Border Protection, U.S. Coast Guard, U.S. Immigration and
Customs Enforcement, and the National Communications System. These four entities received more
than 99% of the total funds assigned through mission assignments to DHS as a whole. They were
charged with carrying out a total of 167 mission assignments, primarily for safety and protection
services in the affected areas at costs authorized up to a total of $754.6 million. Our objective was to
determine whether these component agencies had properly designed and implemented management
processes and internal controls over the funds each received for the specific mission assignments.

This report presents findings that are systemic in nature across the component agencies we reviewed,
and makes recommendations for improving the management of mission assignments and the related
funding. There are five areas of control weaknesses that need to be addressed:

   •	 Procurement and contract monitoring standards;
   •	 Funds control and accounting for transactions;
   •	 Obtaining and retaining appropriate documentation to support expenditures for FEMA
      reimbursement;
   •	 Accountability for property; and
   •	 Reimbursement billing processes.

In general, the control weaknesses were at least partially related to lack of preparedness to address
mission assignments of the magnitude demanded by the 2005 Gulf Coast Hurricanes. Although
shortages of personnel resources were often cited, in many cases, the problems emanated primarily
from failure to follow what should have been institutional controls over the types of activities called
for by the mission assignments. An important aspect of these preparation issues is that weakness in
one area often affects performance in others.

The National Response Plan, which was revised and renamed the National Response Framework in
January 2008, called for all primary and designated supporting agencies to plan for, and be ready to
respond to, disasters caused by terrorist actions, weather phenomena, or other factors. Effective
planning could have had procurement authorities identified and procurement instruments in place to
allow for expedient and economical purchases. Instead, emergency procurements cost more than
necessary, delays were encountered in completing contracts, and there were differences in
contracting approaches and provisions for the same services.

Two of the four component agencies did not use the funds control features of their financial
management systems. They used automated spreadsheets to record obligations and use of funds.
This information was subsequently transferred to the financial management systems. In addition to
loss of budgetary control, the detailed data needed for FEMA reimbursement was not provided.
                                                                                                         1
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
All four component agencies had documentation difficulties, and several still have not provided the
information required to be reimbursed for costs incurred under the mission assignments. All of the
four agencies had documentation and accountability weaknesses in property acquisitions.

We are recommending that the department (1) ensure its component agencies prepare more
effectively for participation in future disaster response activities and (2) address the five internal
control weaknesses identified in this report.




                                                                                                         2
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Background
On November 25, 2002, the President signed the Homeland Security Act of 2002 (Homeland
Security Act) establishing the United States Department of Homeland Security (DHS), effective
March 1, 2003. The Homeland Security Act combined 22 federal agencies and programs into one
department, including the following major programs, bureaus, and agencies: Federal Emergency
Management Agency (FEMA); Transportation Security Administration and the U.S. Coast Guard
from the Department of Transportation; U.S. Customs Service and U.S. Secret Service from the
Department of the Treasury; U.S. Immigration and Naturalization Service and Office of Domestic
Preparedness from the U.S. Department of Justice; and the National Communications System from
the U.S. Department of Defense.

The Homeland Security Act and other Presidential directives established a new, unified, all-hazards
framework and plan for future responses to terrorism, natural disasters, special events, and
emergencies. This plan, referred to as the National Response Plan, revised and renamed the
National Response Framework in January 2008, establishes a comprehensive all-hazards approach to
enhance the ability of the United States to manage domestic incidents. The National Response Plan
incorporates best practices and procedures from incident management disciplines such as emergency
management, law enforcement, firefighting, public works, public health, responder and recovery
worker health and safety, and emergency medical assistance, and integrates them into a unified
structure. It forms the basis of how the federal government coordinates with state, local, and tribal
governments and the private sector during incidents, and establishes lead agencies for many different
aspects of possible disaster response.

FEMA is responsible for coordination of efforts under the National Response Plan. FEMA works in
partnership with other organizations that are part of the Nation's emergency management system,
including state and local emergency management agencies, 27 federal agencies, and the American
Red Cross. The Robert T. Stafford Disaster Relief and Emergency Assistance Act (Stafford Act) is
the statutory authority for most federal disaster response activities, especially as they pertain to
FEMA and FEMA programs. FEMA is authorized to task other federal agencies, including
components within Homeland Security, with needed expertise to carry out specific disaster relief
activities beyond their usual authorities and resources.

On August 29, 2005, Hurricane Katrina devastated the Gulf Coast states of Florida, Alabama,
Mississippi, and Louisiana with Category Three winds and torrential rains. By September 9, 2005,
Congress passed legislation that provided over $63 billion to DHS for disaster relief. In the
aftermath of the Gulf Coast Hurricanes, FEMA issued 167 mission assignments amounting to $754.6
million to U.S. Customs and Border Protection (CBP), U.S. Coast Guard (Coast Guard), U.S.
Immigration and Customs Enforcement (ICE), and National Communications System (NCS) to
provide search and rescue activities, law enforcement, air support, safety and protection services,
and telecommunications activities during hurricane relief efforts. Under the provisions of the
Stafford Act, agencies and other entities that FEMA tasks for assistance are authorized to seek
reimbursement from FEMA for eligible costs incurred during the performance of assigned missions.


                                                                                                        3
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Created in March 2003, ICE is the largest investigative branch of DHS. The agency was created by
combining the law enforcement arms of the former United States Immigration and Naturalization
Service and the former United States Customs Service to help enforce immigration and customs laws
and to protect against terrorist attacks. ICE operates with a workforce of nearly 15,000 personnel,
including four law enforcement divisions and several support divisions. Most of the funds provided
to it for disaster assistance were for providing security services in the disaster area to protect
property and preclude looting.

CBP is an entity within DHS that includes the former responsibilities of the United States Customs
Service, the United States Border Patrol, and the inspectional functions of the United States
Immigration and Naturalization Service and the United States Department of Agriculture’s Animal
and Plant Health Inspection Service. Under the National Response Plan, CBP has a role in
situations where state and local government resources are overwhelmed or are inadequate, or in pre-
incident or post-incident situations that require protective solutions or capabilities unique to the
Federal Government. CPB had a variety of roles in the 2005 Gulf Coast response, including:
providing support services for disaster response forces and security services for the early evacuation
efforts; providing life support and first aid to Gulf Coast residents affected by the hurricanes;
partnering with FEMA to deliver food and medical supplies; using its aircraft to shuttle rescue
workers, doctors, and FEMA authorities to the affected areas; providing aerial views of the extensive
damage on the ground; and serving as the primary air traffic control agent.

Coast Guard is responsible for performing a variety of homeland and non-homeland security
missions, including ensuring security in territorial and international waters, and within U.S. ports;
conducting search and rescue; interdicting illegal drug shipments and illegal aliens; enforcing
fisheries laws; ensuring the safety and facilitation of commerce; and responding to reports of marine
pollution. Coast Guard’s authority under federal law to conduct maritime operations, such as search
and rescue and port security, is continuously in effect, rather than dependent upon a presidential
Stafford Act declaration or the implementation of the National Response Plan. This ongoing
authority uniquely positioned Coast Guard to respond to Hurricane Katrina before the President
made emergency or major disaster declarations under the Stafford Act. Concurrent with the Coast
Guard’s historical missions and authorities, the National Response Plan identifies the Coast Guard
as a primary agency in the oil and hazardous materials response and the support agency in six other
emergency support functions, including urban search and rescue and aspects of clearing waterways.
Coast Guard had a primary role in arranging for the removal of the extensive debris and sunken craft
in the navigable waters in the disaster area.

NCS was established during the 1960s to link, improve, and extend communications facilities and
components of various federal agencies. With the inception of DHS in 2003, NCS was transferred
from the Department of Defense to DHS’ Information Analysis and Infrastructure Protection
Directorate, and in 2005, was internally shifted to the Directorate for Preparedness. In 2007,
portions of the Directorate for Preparedness were consolidated into the new National Protection and
Programs Directorate (National Protection and Programs). NCS plays an important role in assisting
the federal executive branch in managing telecommunications functions and responsibilities, and in
coordinating the planning and provision for national security and emergency preparedness

                                                                                                        4
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
communications. In the aftermath of the 2005 Gulf Coast Hurricanes, NCS coordinated restoration
and preservation of emergency communication capabilities in the affected areas.




                                                                                                        5
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Results of Reviews
We assessed the internal control environment used to administer mission assigned tasks and funding,
and reported on the results of our tests to evaluate mission assignment procurements, expenditures,
and supporting documentation for reimbursement billings in each of the four DHS component
agencies that received 2005 Gulf Coast Hurricanes mission assignments.

We interviewed component agency management staff, reviewed terms and conditions of the mission
assignments, conducted extensive testing of transactions to assess initial preparedness to implement
the mission assignments; and assessed budgetary control and financial management systems support
available and used. We compared conformity of outlays with the mission assignments; and
evaluated controls in place over receipt, acceptance and payments for goods and services procured,
asset accountability, and assessed validity and support for reimbursement claims to FEMA.

The basis for our test work was a detailed list of all mission assignment obligation, expenditure, and
reimbursement billing transaction activity through March 31, 2006. For each aspect of our testing,
we selected transactions that would allow us to cover a large percentage of the dollars involved.
Because our work was based on a combination of high-dollar and judgmental sampling, the results
are not statistically representative. However, due to the high dollar coverage obtained and the types
of internal control issues discussed throughout this and the underlying reports, we believe that our
test results reflect the management challenges faced by DHS agencies. Appendix A in each of the
underlying reports includes additional details on our objectives, scope, and methodology for each of
the reviews.

This report presents findings that are systemic in nature across the four DHS component agencies,
and makes recommendations to the department for improving the management of mission
assignments and the related funding. Our results are presented sequentially, as the component
agencies would have progressed in planning and administration of mission assignments, starting
with organizing the effort and ending with steps for obtaining reimbursement for costs incurred on
FEMA’s behalf.

The National Response Plan, which heads of all major federal agencies signed during the fall of
2004, called for all primary and designated supporting agencies to plan for and be ready to respond
to disasters caused by terrorist actions, weather phenomena, or other factors. While the magnitude
of the 2005 Gulf Coast Hurricane disaster was unprecedented, the four agencies were, to varying
degrees, not ready to expeditiously implement the basic managerial controls contemplated by the
National Response Plan. To their credit, several agencies recognized shortfalls in their
administration of selected aspects of mission assignment management, and have conducted after-
action analyses and proposed improvements that would address some of the financial management
weaknesses we identified. These agency efforts were conducted in the same timeframes as our
reviews. Accordingly, we did not determine the extent to which these initiatives would, if
implemented, resolve the internal control weaknesses we identified and discussed below.



                                                                                                         6
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
A. Procurement and Contract Monitoring Standards Across Component
   Agencies
CBP, ICE, and NCS were not initially prepared to acquire goods and services in support of mission
assignments. CBP compensated by using emergency procurement provisions and paying for items
using purchase cards. ICE’s Federal Protective Service did not have contracts in place for
emergency guard services and, consequently, used different contracting vehicles with different
provisions that resulted in added costs. NCS did not have a defined process for procurement and
obligated the government under a verbal contract, which it lacked the authority to initiate.

CBP’s management acknowledged that it paid more to meet requirements on an emergency basis
during its initial support of deployed officers because it had not completed sufficient planning work
including establishing contracts with suppliers. CBP’s procurement using the modified acquisition
regulations and payment using purchase cards was addressed in detail by a U.S. Government
Accountability Office (GAO) report1 that noted the many advantages of advance planning that
avoids the effects of possible spikes in demand and the resulting cost penalties. That report pointed
out that through additional planning, including advance contracting initiatives, CBP could have been
aware of already established General Services Administration contracts, as well as current inventory
levels of other federal agencies that routinely buy items needed for a disaster response initiative,
such as Meals Ready-to-Eat (MREs).

Regarding the ready-to-eat meal purchases, GAO pointed out that the Department of Defense’s
Defense Logistics Agency had sufficient MRE inventory on hand to meet interim CBP needs at that
time. Also, CPB may have paid approximately $100,000 more for the packaged meals it purchased
because it did not leverage existing GSA contracts. Further, it noted that MREs could have been
purchased in increments—versus all at once—to reduce the risk of excessive buys, which is what
occurred in this case. Specifically, the envisioned demand for MREs did not materialize because the
CBP employees who were sent to the Gulf Region were withdrawn earlier than anticipated.
Advance planning also could have resulted in lowered cost for mobile shower units with hot water
capabilities and would have had these items in place sooner.

Similarly, the Office of Federal Protective Service (FPS), a component of ICE, was responsible for
quickly hiring and deploying protective services to augment local police forces to preclude violence
and looting in disaster areas. Effective preparation for acquiring protective services would have
entailed having established key understandings among ICE-FPS Regional procurement staff and the
contractual tools in place in order to hire and deploy needed guard forces in a timely manner. When
FEMA tasked it with providing protective services in the disaster areas, ICE had existing contracts,
but not for the scale of the effort that FEMA envisioned.

In reacting to the immediate need, ICE did not have disciplined processes to ramp up the scale of its
efforts or use its prior experience to consistently include key provisions in contracting for similar

1
 GAO-06-957T, “Purchase Cards; Control Weaknesses Leave DHS Highly Vulnerable to Fraudulent, Improper, and
Abusive Activity;” released July 19, 2006.
                                                                                                         7
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
services. One region with existing contracts elected to use what were referred to as “Additional
Service Requests” that, while based on existing contracts, did not incorporate all provisions. For
example, some of these requests, such as those in email format were very informal, and did not
include important inherent advantages of more structured approaches. Also, provisional contracts
were used and in one case not finalized until March 2006. There was extensive billing for hours
outside of contract periods, as well as 30 of 53 Additional Service Requests did not include a
performance period.

Differences in contract provisions regarding what were eligible billing hours resulted in added costs.
One region allowed billing of time for guards awaiting assignment to posts (pool hours); the other
did not. We attempted to discern the cost implications for costs billed in December 2005 for the
contractor allowed to bill for such pool hours. We could only review two of the nine expenditure
transactions from that contractor for that month because the contractor did not submit Form 139,
which documents guard arrival and departure times and locations. For the two with this
documentation, 1,600 of the 15,000 hours billed were pool hours. Due to lack of data for the other
seven billings, we could not determine the extent of this problem for billings from that contractor for
December 2005.

NCS needed specialized communications equipment to restore emergency communications in the
disaster area but had not previously arranged for the needed contract support and authority.
Ultimately, it merely provided vendors with the oral authorization to provide and install equipment
and arranged for contracting services after the fact. While pragmatic under the circumstances, NCS
should have realized the possibility of emergency communication outages and, given that it did not
itself have procurement authority, collaborated with its support arm within DHS. We identified five
contracts for equipment and services to restore emergency communications that were signed in late
April 2006, for which vendor activity had been completed as early as September 2005. Without
contracts, vendors could not bill for completed work. Accordingly, in response to FEMA’s inquiries
in early 2006 about whether these mission assignments could be closed out, the Federal Emergency
Communications Coordinator at the Joint Field Office responded that several mission assignments
could not be closed because vendors had not yet submitted bills.

Two of the four DHS agencies executed contracts for periods outside the parameters of FEMA’s
mission assignment document. Some acquisitions were inconsistent with the mission assignment
statements of work; others were ordered after the performance period expired. While these costs
may have contributed to accomplishing the mission assignment goals, it is not clear from the
available documentation whether and to what extent that was the case. Our tests of CBP transactions
identified two mission assignments for which incurred costs appeared to have been either outside the
scope of work or after the period for which funds were available.

One mission assignment provided $7.5 million for CBP to deploy up to 240 officers to the Louisiana
Superdome to assist in crowd/riot control during evacuation of the Superdome from August 31, 2005
through September 30, 2005. In support of these officers, the mission assignment allowed CBP to
provide such items as water, MREs, temporary support packs, and other equipment. We reviewed
ten procurement actions related to this mission assignment. Four of the procurements appeared to be

                                                                                                         8
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
for automatic data processing and telecommunication goods and services that were not consistent
with allowable support expenditures. Another mission assignment to provide law enforcement
personnel was charged approximately $66,000 for a large trailer-mounted air conditioning unit and
approximately $227,000 for rental trailers and miscellaneous supplies, after the expiration of the
designated performance period.


RECOMMENDATIONS

We recommend that the Undersecretary for Management:

   •	 Recommendation #1: Ensure DHS component agencies develop and have in place,
      contracts to provide the type and scale of support that may be necessary to support future
      disaster response activities;

   •	 Recommendation #2: Require that all procurement vehicles contain standard clauses and
      provisions that are relevant for the specific type of procurement;

   •	 Recommendation #3: Establish adequate internal control procedures to monitor agency
      performance and underlying agreements to ensure that payments are made only for services
      provided within the performance period and allowable timeframes authorized by the mission
      assignments; and

   •	 Recommendation #4: Establish adequate internal control procedures to monitor contractor
      performance and ensure that they are effectively implemented to preclude submission of
      unsupported vendor invoices.


B. Compliance with DHS’ Funds Control Policy and Procedures
Funds control policies and procedures used by two DHS component agencies for administering
mission assignments were not consistent with DHS requirements and federal guidelines concerning
control over budgetary resources. DHS requires its component agencies to have an effective funds
control system to manage available funds for the intended purposes and to prevent overspending.




                                                                                                        9
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Specifically, this system is intended to ensure that:

           •	 Funds are available prior to obligation;
           •	 Funds are obligated and expended solely for the purposes for which they were
              appropriated, except as otherwise provided by law;
           •	 Only valid obligations are recorded in the accounting records, and all obligations
              incurred are recorded accurately and promptly; and
           •	 Obligations and expenditures are not authorized or incurred in excess of available
              funds or any legal or administrative limitations.

ICE incurred approximately $33 million of obligations and expenditures from January 2006 through
March 2006 that it did not record in its financial management system until after March 31, 2006.
ICE-FPS had initiated a 4-month extension of an existing contract to increase the authorized amount
for armed guard services in support of Hurricane Katrina efforts in Louisiana. Although the period
of performance was from December 1, 2005, through March 31, 2006, the contractor and the ICE­
FPS contracting officer did not sign an amendment to the contract until March 21, 2006, 10 days
prior to the end of the extension period. Although the contractor was paid for the period during
which the contract extension was pending, FPS did not record the related obligations or
expenditures.

Charges were not recorded since the system would not accept obligations without a ratified contract.
ICE/FPS staff told us that they alternatively used separate automated spreadsheets to track the
funding status of mission assignments. After the contract extension was finalized, they transferred
data from the spreadsheets to the financial management system. Recording obligations and
disbursements for mission assignments after the fact was also the practice of the Coast Guard.

Although ICE/FPS and the Coast Guard staff told us that they used similar practices to provide the
greatest level of flexibility for the regional operations staff, they negated the budgetary and financial
controls inherently available from a functional and integrated budgetary and financial management
system. This practice resulted in a lack of system visibility over amounts provided, obligated, and
spent on each mission assignment. Further, the practice also sacrificed a major portion of their
controls over whether amounts spent were for valid obligations and whether disbursements were
charged to the correct accounts


RECOMMENDATIONS

We recommend that the Undersecretary for Management:

   •	 Recommendation #5: Enforce the recording of all mission assignment funding authority
      and related obligations and expenditures in agency budgetary and financial management
      systems as transactions occur to minimize the risk of incurring expenditures in excess of
      funding limits and to preclude the processing of improper payments; and


                                                                                                         10
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
    •	 Recommendation #6: Ensure that field command location2 and financial management
       personnel are trained in the appropriate use of budget object codes and the processing of
       transactions.


C. Completeness and Availability of Documentation Supporting Expenditures
Our tests of transactions showed that the four DHS agencies did not have sufficient documentation
supporting payment for approximately $29 million of the $108 million in payments tested. For each
of the four agencies, we identified the universe of transactions related to mission assignment work
through specific cut-off dates. Using judgmental sampling, we selected transactions so as to cover
the majority of the funding used by each agency. For each test transaction, we requested the
underlying contracts, purchase orders, invoices, and acceptance and receipt documentation, and
conducted various test procedures to establish the propriety of the expenditures. The criteria for
supporting the validity of payments are standard requirements established in GAO and Treasury
Financial Manual guidelines.

We determined that:

    •	 ICE did not have sufficient supporting documentation for approximately $5.4 million of the
       $82.2 million it had expended on the 76 mission assignments as of March 31, 2006.

    •	 CBP did not have sufficient supporting documentation for about $2 million of the $18.2
       million it had expended on the 11 mission assignments as of March 31, 2006.

    •	 Coast Guard did not have sufficient supporting documentation for approximately $20.4
       million of the $100.4 million that it had expended on the 57 mission assignments as of March
       31, 2006.

    •	 NCS did not have sufficient supporting documentation for approximately $965,614 of the
       $4.4 million it had expended on the eight mission assignments as of September 30, 2006.

The $29 million in documentation issues cited above are payments for charges that were inconsistent
with contract terms, failure to monitor and confirm accuracy of amounts billed, or failure to
document and retain documentation to confirm that agency staff had performed due diligence efforts
to confirm receipt of goods or performance of services prior to payment.

Several types of scenarios contributed to the lack of documentation. Coast Guard did not have
documentation for more than $20 million of its mission assignment outlays. Almost all of these
amounts stemmed from the Coast Guard tasking the Department of Defense’s Naval Sea Systems

2
  Federal agencies carrying out mission assignment tasks usually establish a field or site office from which to oversee or
administer operations and use standard operating procedures and policies already in place for their permanent field or
regional locations to provide the control structure at temporary site locations as well.
                                                                                                                      11
        Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Command to clean up debris from navigable waters in the aftermath of the hurricanes. For other
than mission assignment work, the performing agency will perform or have the work performed,
document the propriety of payments, retain supporting documentation, and bill the requesting
agency. However, the National Response Plan3 requires performing agencies, whether they are the
primary agency to which FEMA issued the mission assignment or a subtasked agency performing on
behalf of the primary agency, to provide documentation spelled out on FEMA’s website4 which is
referenced in transmittal documents for mission assignments, as a condition of FEMA
reimbursement.

The Coast Guard and NCS did not specifically require this additional documentation of costs in the
related interagency agreements with their respective subtasked agencies. They reimbursed the
participating agencies but had not obtained the type of documentation that they would need to justify
reimbursement from FEMA. NCS subsequently requested and obtained the type of information that
it would need, but as of the end of our fieldwork, Coast Guard had not obtained such supporting
information. As discussed later, missing documentation has slowed or stalled reimbursement from
FEMA for the Coast Guard and NCS. At ICE, we were not provided documentation that over
$300,000 of hotel charges were for confirmed use of rooms by authorized personnel. Also, almost
$3.3 million that ICE had billed to FEMA as added overhead costs associated with mission
assignment activities could not be validated.


RECOMMENDATIONS:

We recommend that the Undersecretary for Management:

      •	 Recommendation #7: Develop and implement a standard for appropriate documentation to
         support mission assignment expenditures and enforce DHS’ record retention policy;

      •	 Recommendation #8: Implement effective control processes for ensuring that all goods and
         services provided in support of mission assignments are validated as received and acceptable
         prior to approving payment for them; and

      •	 Recommendation #9: Ensure that receipt and acceptance of goods and services are 

         documented fully, and the associated supporting documentation is retained. 





3
    National Response Plan, Financial Management Support Annex, page FIN-5.
4
  Requirements established by FEMA for supporting documentation and reimbursement transactions on their website
(http://www.fema.gov/government/billinst.shtm) as referred to in the Financial Management Support Annex of the
National Response Plan, page FIN-5.
                                                                                                              12
         Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
D. Management and Accountability of Property
Depending on the nature of mission assignments, DHS component agencies and their subtasked
entities were authorized to purchase equipment or other assets to complete mission assignments.
Equipment items are to be physically controlled and recorded in asset accounting records to ensure
responsibility for use or loss. High cost items are to be included in the amounts reported as assets on
owning or controlling federal entities balance sheets.

The DHS component agencies tended to have some common problems in accounting for property,
but also unique problems that created risks of excess financial costs for each of the four agencies,
and by extension, for FEMA who provided the funding. Given the pervasiveness of this issue, DHS
as a whole did not have adequate controls for recording these assets in its financial management
records, and for establishing item accountability during and upon completion of the mission
assignments. These are the minimum federal expectations for maintaining records to show
ownership, condition, location, and other necessary information to assist management in making
asset use and acquisition decisions, or for locating items and returning them to FEMA as a condition
of reimbursement.

Much of CBP’s early procurement used purchase cards. This helped expedite purchases, but
breakdowns in a related control increased the risk that assets meeting DHS’ capitalization criteria
would not be recorded in the financial management or property systems. One required control
feature was that the CBP asset management division would provide online approval for capitalized
items. Such approved items were automatically recorded in the property management system, rather
than recorded from documentation prepared when items are received from vendors. Our tests of 30
purchase card transactions identified 6 that used the budget object code for equipment. Three of
these six, with a total cost of approximately $225,000, met DHS’ $50,000 capitalization criteria and
would have, if coded correctly, required the on-line approval. However, they were coded to a
consumable equipment code versus the proper capital item budget object code. The wrong code
precluded automated recording by the financial management system, which triggers efforts to locate
and account for such items if they are not documented as received at field locations.

Also, CBP’s lack of disaster field command location property management procedures and the
assignment of untrained and inexperienced personnel resulted in weak controls over property
acquired and issued for use during the disaster response. Weaknesses included:

   •	 Absence of documentation regarding receipt of property items at field command locations;
   •	 Lack of accountable property tracking systems at field command locations; and
   •	 An informal CBP policy of allowing acquired disaster property to be retained by its own
      local field command locations.

Our tests of supporting documentation for 65 equipment expenditure selections showed that
miscoding of procurements was a widespread issue. In addition to the three equipment purchases
identified as meeting DHS’ capitalization criteria but recorded as consumable property, 51 other

                                                                                                         13
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
expenditure transactions were coded incorrectly. Of the 51 miscoded transactions, 46 were
telephone and radio property items costing $1.4 million that were coded as Other Equipment instead
of Telecommunications Equipment. CBP said that the procedures developed and implemented by its
property management team over control of items received from vendors were verbally
communicated to field participants but were not documented due to the nature of the operating
environment. Personnel assigned with property management responsibilities had not received prior
training.

Coast Guard had a potentially more severe problem. Compared to its overall outlays in support of
the 57 mission assignments, expenditure records indicated purchases of only limited amounts of
property. However, its practices for contracting for disaster response assistance through its
interagency agreement process may mask the extent of property purchases. It contracted with Naval
Sea Systems Command for debris removal services by leveraging an existing contract. As discussed
previously, the type of interagency agreement used by the Coast Guard required only that the
performing agency provide performance data as support for reimbursement. In the absence of
detailed billing data, we were not able to confirm whether Naval Sea Systems Command met its
contractual requirements through subcontractors, or leased or acquired property to expand its own
operations.

While Naval Sea Systems Command had an established relationship with the Coast Guard for debris
removal services, Coast Guard procurement officials said that the scope of this effort was beyond
Naval Sea Systems Command’s internal capacity, and that additional contracting had occurred. In
the absence of documentation supporting billed amounts paid by Coast Guard, there is no certainty
that they did not pay for certain property augmentation or subcontractor- purchased property. To the
extent that this occurred, additional detail would have to be obtained on the Naval Sea Systems
Command billings to identify costs associated with property purchased and billed to the Coast
Guard, but retained by Naval Sea Systems Command. Responding to our request, the Coast Guard
was unable to provide the documentation required to assess whether any accountable property, and
its value, had been financed through the subtasking of mission assignments to Naval Sea Systems
Command.

ICE could not provide evidence of the receipt of all property acquired for mission assignments. Our
analysis of available documentation determined that 8 of the 10 transactions identified as equipment
purchases amounting to approximately $1.3 million could not be verified.

Property acquired with mission assignment funding is subject to the requirements of FEMA Manual
6150.1, “FEMA Personal Property Management Program” and DHS Management Directive 1120,
“Capitalization and Inventory of Personal Property.” Collectively, this guidance requires accounting
for accountable property with an original acquisition cost of $15,000 or more, that by its nature is




                                                                                                        14
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
not expendable or consumable,5 and the capitalization of property with acquisition costs equal to or
exceeding $50,000. These guidelines require that all accountable and capitalized property acquired
with mission assignment funding to be tracked from its acquisition and use during an agency’s
disaster field response through either its transfer to FEMA or its disposition. FEMA’s “Personal
Property Management Program” manual6 documents the procedures and internal controls needed to
successfully ensure accountability for property during disaster responses. As documented, disaster
field command location receiving processes should include:

     •	 The receiving location receiving advance notice of ordered goods and their anticipated arrival
        date;
     •	 The status and quantity of received goods being verified at the time of receipt by individuals
        with receiving responsibilities;
     •	 Evidence of the received property’s status and quantity forwarded to the office responsible
        for vendor payment; and
     •	 Ensuring received property is recorded in an asset tracking system that enables the field
        command location to continually track the property location; who, if anyone, the property is
        currently assigned to; and its serviceability.

The implementation of these processes help ensure that the type and quantity of procured goods
received by the field command location is recorded, vendor payment is valid, the organization
maintains accountability over property, and that property meeting DHS’ capitalization criteria is
completely and accurately presented in the organization’s financial management system.

Accountability over property can also have a significant impact on the financial condition of mission
assigned agencies. FEMA stipulates that it will reimburse mission assignment agencies for
accountable property exceeding defined dollar thresholds if returned to FEMA. If the DHS
component agencies had planned on full reimbursement but were not able to locate all items to be
returned to FEMA, they might experience an annual funding shortfall.




5
  Accountable property also includes sensitive and serialized property items. DHS defines sensitive property as
accountable property (regardless of original acquisition cost), that is highly susceptible to misuse, loss, or theft, such as
pagers, cellular telephones, electronic test equipment, personal computers, thumb drives, or any other storage device that
may contain proprietary government information and will be individually accounted for and controlled through the
agency’s property management system. Serialized equipment includes equipment with a manufacturer’s serial number
such as mechanical tools and miscellaneous data processing hardware that is not classified as sensitive property.
6
    FEMA Manual 6150.1, “Personal Property Management Program”
                                                                                                                         15
         Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
RECOMMENDATIONS

We recommend that the Undersecretary for Management:

      •	 Recommendation #10: Implement controls to ensure that all DHS component agencies
         acquiring accountable property with mission assignment funds comply with DHS’
         accountable property policy and procedures;

      •	 Recommendation #11: Determine the extent to which reimbursements from FEMA
         included costs for acquisition of accountable property items that were not turned over to
         FEMA, and either forward those property items to FEMA or refund the associated amount;
         and

      •	 Recommendation #12: Require adoption of a property receipt process, such as that included
         in FEMA’s guidance, for the issuance of accountable property from inventory at disaster
         field command locations.


E. The Reimbursement Billing Process
The four DHS agencies we reviewed had not developed their own internal processes and, in some
cases, had not obtained the information required to prepare reimbursement billings in compliance
with FEMA’s requirements. Agency financial management personnel were not familiar with the
required reporting formats and, as a result, the four agencies experienced difficulties in getting
reimbursed for their incurred costs. More than two years later, there were continuing problems in
the data submitted for reimbursement.

As the steward of the Disaster Relief Fund, FEMA has the authority to specify the supporting
documentation requirements for all federal agencies providing support and requesting
reimbursement from the Fund.7 Typically, when federal agencies provide procurements or services
for one another, they arrange for reimbursements of those goods and services using the standard
“Intragovernmental Business Rules.”8 Under this approach, the ordering and performing agencies
agree to the form and content of the performing agency’s documented evidence of performance to be
provided in support of Intra-Governmental Payment and Collection System9 transactions. Generally,
the agreed-upon form and content includes the information necessary to identify the transaction, its
associated interagency agreement, and the charges by budget subobject class. Due to the debilitating

7
    National Response Plan, Financial Management Support Annex, page FIN-5.
8
  OMB Memorandum M-03-01, “Business Rules for Intragovernmental Transactions,” Treasury Financial Manual,
Volume I, Bulletin No. 2007-03, “Intragovernmental Business Rules,” and Treasury Financial Manual, Volume 1, Part
6,Chapter 4000, “Intra-Governmental Payment and Collection System.”
9
  The Intra-Governmental Payment and Collection System’s primary purpose is to provide a standardized interagency
fund transfer mechanism for Federal Program Agencies. It facilitates the intragovernmental transfer of funds, with
descriptive data from one agency to another.
                                                                                                                 16
         Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
impact of disaster response activities on normal agency internal controls, FEMA augmented its
supporting documentation requirements to address the increased risk of internal control weaknesses
that often occur during the life-saving and life-sustaining rescue and support operations involved
with disaster responses. The detailed requirements are on FEMA’s website under the label “Mission
Assignment Billing and Reimbursement Checklist.” In addition to information necessary to identify
a transaction and the associated mission assignment, FEMA requires the following:

   •	 Description of the goods received or services provided;
   •	 Breakdown of hours incurred in support of personnel services;
   •	 For indirect costs, the percentage applied and a description of the costs included in the cost
      pool;
   •	 For contract services, the contract number, vendor name, total contract cost, and a description
      of its purpose;
   •	 For property acquisitions:
      � A description of item, vendor name, and unit cost for all non-expendable or sensitive
          items greater than or equal to $1,000, and
      � The return of all items described above or an agreement to waive this requirement;
   •	 For property leased, a description of the item, vendor name, and unit cost;
   •	 Identification of motor vehicle costs;
   •	 Identification of costs subtasked to another agency; and
   •	 All “Other Costs” defined.

Under this concept, FEMA is not requesting that agencies submit the documentation underlying
individual contracts, transactions, or payments. Instead, they are, in essence, asking support
agencies to describe, in narrative or other format, the use of mission assignment funds and how they
provided the support services requested.

Although this documentation request is not difficult, it is a different approach from requirements
agencies use with standard interagency agreements. Some agencies submitted the same type of data
in the formats used for their customary interagency work, which did not meet the intent of FEMA’s
documentation requirement. Satisfying these alternate FEMA requirements requires having the
detailed supporting information and then packaging it in the fashion identified by FEMA’s “Mission
Assignment Billing and Reimbursement Checklist.”

ICE’s financial management personnel informed us that, initially, they had not developed plans for
producing the additional data. ICE had prepared supporting documentation for FEMA in the same
manner it would have prepared for reimbursement under any other interagency agreement. It created
unique identifying numbers in its financial management system for each mission assignment and
segregated its incurred cost accordingly. ICE also used its financial management system’s integrated
reimbursement bill generation process to extract all previously unbilled transactions, as recorded in
its system, consolidate them by mission assignment agreement number, and summarize them by
budget object code on a monthly basis. Thus, it had a basis for reporting in the manner that FEMA
envisioned in the checklist.

                                                                                                        17
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
We reviewed 24 of the 127 billings, amounting to $55.1 million of the $60.8 million that ICE had
submitted to FEMA for reimbursement through March 31, 2006, and noted the following:

   •	 None included evidence of a Certifying Official’s approval of the reimbursement bill;
   •	 Three billings were submitted 90 days or more after the mission assignment performance end
      date;
   •	 Nineteen billings did not state the period of performance;
   •	 Four of the six billings that included personnel cost did not identify overtime labor with the
      breakdown of hours. Therefore, we were unable to substantiate personnel costs billed to
      specific transactions with details by hours worked.

In response to FEMA’s concerns that this data did not adequately address its requirements, ICE
provided additional information from its financial management system. However, in cases where
there was more than one billing for a mission assignment, the data was cumulative. This resulted in
an inability to determine which expenses the current month’s billing covered. In addition, the data
was not provided in sufficient detail to convey to FEMA the nature of the goods and services
purchased.

CBP, Coast Guard, and NCS did not develop standard operating procedures for preparing mission
assignment reimbursement billings and the staff assigned were not familiar with the requirements.
The initial reimbursement billings from these component agencies provided the supporting
documentation typically required when processing an interagency billing through the Intra-
Governmental Payment and Collection System. Because FEMA’s requirements are more extensive,
the initial supporting documentation packages from these component agencies were not adequate.

Especially problematic has been reimbursements for equipment and other longer-life type items
purchased with mission assignment funds. Agencies may keep these items and deduct the amounts
paid from the reimbursement bill or they may turn them in to FEMA and be reimbursed. Agencies
usually billed for items not returned. While it is difficult for FEMA to know the extent of such
purchases, its checklist is designed to identify such items. Also, FEMA’s on-site regional staff may
be familiar with larger scale purchases and flag them when mission assignment reimbursement
billings are routed through the respective FEMA regional offices. However, the risk is greater for
any costs reported with budget object codes, which would not typically reflect asset purchases. Lack
of budget object coding on Coast Guard outlays for clearing debris from navigable waterways is one
such risk area.


RECOMMENDATIONS

We recommend that the Undersecretary for Management:

   •	 Recommendation #13: Augment existing instructions found in FEMA’s “Mission
      Assignment Billing and Reimbursement Checklist” by developing and including proforma
      examples of billing submissions that would meet its criteria for reimbursement of

                                                                                                        18
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
   incurred costs or include examples of previously submitted bills that FEMA has determined
   to be satisfactory;

•	 Recommendation #14: Develop and provide training to the cognizant management and
   staff at each DHS component agency on the nature and extent of documentation requirements
   for FEMA’s reimbursement of performing agencies’ incurred costs. This training could take
   the form of on-line videos with audience question and answers, frequently asked questions
   and answers, or other instruments to promote clarity and understanding; and

•	 Recommendation #15: Require that primary agencies for mission assignments include
   provisions in their interagency agreements with support agencies for receipt of adequate
   documentation to support reimbursement from FEMA. Stipulate that primary agencies
   receive and confirm the acceptability of this documentation prior to approving payments to
   subtasked or supporting agencies.




                                                                                                     19
   Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Management Response and OIG Analysis

The Under Secretary for Management concurred with all the recommendations we offered to
improve DHS’ management of mission assignment funding and emphasized establishing and
maintaining control over mission assignment funding is a vitally important management
responsibility, especially in an emergency response situation. During the audit and after our
fieldwork, DHS worked to improve its operations involving mission assignments.
Recommendations 1 and 2 are closed because DHS has executed scalable contracts that support
disaster response activities and now requires the inclusion of standard clauses in all procurement
vehicles, including future mission assignment procurements. We consider recommendations 3
through 15 resolved because steps are being taken to implement them; however, they will remain
open until evidence is provided that each has been fully implemented.




                                                                                                        20
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix A
Objectives, Scope, and Methodology



DHS Office of Inspector General (OIG) contracted with Regis and Associates, PC to assess mission
assignment management and financial management controls in place at CBP; Coast Guard; ICE; and
NCS, and offer recommendations for any needed improvements. This effort is part of the overall
objective of the DHS OIG to ensure accountability in the management and expenditure of funds for
relief and recovery efforts relative to disasters.

The scope of our reviews included the 167 mission assignments that FEMA issued to the four DHS
agencies providing disaster response assistance in the Gulf Coast region resulting from Hurricanes
Katrina, Rita, and Wilma (2005 Gulf Coast Hurricanes). We reviewed the management processes
and financial management controls applicable to these mission assignments and the related contracts,
expenditures, and reimbursement billings for the period August 29, 2005 through March 31, 2006.
Our review objectives were to assess whether the management processes and financial management
controls were properly designed and implemented, and to determine whether the contracts used,
expenditures incurred, and reimbursements requested were authorized, valid, and appropriately
supported.

The agreed-upon procedures we used for the underlying reviews were performed in accordance with
standards established by the American Institute of Certified Public Accountants and guidance from
the Office of Management and Budget and GAO.

We reviewed selected previous DHS OIG and GAO reports concerning these four component
agencies’ mission assignment management to familiarize ourselves with prior recommendations,
regulations, and guidance applicable to their respective processes and controls. The results of these
reviews were incorporated into our risk assessment for this engagement and our reported results.

The management processes and financial management controls assessment included information
gathering through interviews with appropriate personnel, as well as evaluating management controls
and process designs. These evaluations were accomplished through review of current policies and
procedures, and those that existed during the 2005 Gulf Coast Hurricanes.

We interviewed component agency management staff, reviewed terms and conditions of the mission
assignments, conducted extensive testing of transactions to assess initial preparedness to implement
the mission assignments; assessed financial management systems support available and used. We
compared conformity of outlays with the mission assignments; and evaluated controls in place over
receipt, acceptance and payments for goods and services procured, asset accountability, and validity
and support for reimbursement claims to FEMA.

The determination as to whether the contracts used; expenditures incurred; and reimbursements
requested were authorized, valid, and appropriately supported included our review of supporting
documentation made available by each of the component agencies in each of these areas. We
obtained lists of all procurement, expenditure, and reimbursement billing transactions from their
respective financial management systems for the period August 29, 2005 through March 31, 2006.
On an agency-by-agency basis, we arrayed data for procurements, expenditures, and reimbursement
billings as a basis for deciding the extent and nature of testing required, to offer assurance regarding

                                                                                                         21
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix A
Objectives, Scope, and Methodology



whether our results were representative of agency activity for the test period.

For our tests of procurements, we used a high-dollar criterion to select between 70% and more than
90% of the procurement amounts for each of the four entities. For our tests of expenditures, we
stratified expenditure transactions by budget object code into the following categories with similar
processes and controls:

           •    Other contractual services and rent, communications, and utilities;
           •    Personnel compensation and benefits;
           •    Equipment;
           •    Supplies and materials;
           •    Overhead; and
           •    Travel and transportation of persons.

We used a high-dollar criterion within each category above to select expenditures for testing the
adequacy of supporting documentation for authorizing payments. When summarized transactions
were selected using the high-dollar value criterion, we made additional judgmental selections and
performed detailed tests on individual personnel and travel expenditures within the summary
transaction total.

For our tests of reimbursement billings, we used a high-dollar criterion to select and test about 80%
of the billings each DHS component agency had submitted to FEMA. Additional details on the
scope of the work performed on each component agency can be found in the Objectives, Scope, and
Methodology sections of the individual reports issued on the four agencies pursuant to our contract
with the DHS OIG.

Our fieldwork was conducted from April 25, 2006, through June 1, 2007, and included visits to each
agency’s headquarters in Washington, D.C. and to representative field locations carrying out and
coordinating the disaster assistance work, including offices in Georgia, Indiana, Texas, Vermont,
and Virginia.




                                                                                                         22
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix B
Recommendations



Recommendation #1: Ensure DHS component agencies develop and have in place, contracts to
provide the type and scale of support that may be necessary to support future disaster response
activities.

Recommendation #2: Require that all procurement vehicles contain standard clauses and
provisions that are relevant for the specific type of procurement.

Recommendation #3: Establish adequate internal control procedures to monitor agency
performance and underlying agreements to ensure that payments are made only for services provided
within the performance period and allowable timeframes authorized by the mission assignments.

Recommendation #4: Establish adequate internal control procedures to monitor contractor
performance and ensure that they are effectively implemented to preclude submission of
unsupported vendor invoices.

Recommendation #5: Enforce the recording of all mission assignment funding authority and
related obligations and expenditures in agency budgetary and financial management systems as
transactions occur to minimize the risk of incurring expenditures in excess of funding limits and to
preclude the processing of improper payments.

Recommendation #6: Ensure that field command location and financial management personnel are
trained in the appropriate use of budget object codes and the processing of transactions.

Recommendation #7: Develop and implement a standard for appropriate documentation to support
mission assignment expenditures and enforce DHS’ record retention policy.

Recommendation #8: Implement effective control processes for ensuring that all goods and
services provided in support of mission assignments are validated as received and acceptable prior to
approving payment for them.

Recommendation #9: Ensure that receipt and acceptance of goods and services are documented
fully, and the associated supporting documentation is retained.

Recommendation #10: Implement controls to ensure that all DHS component agencies acquiring
accountable property with mission assignment funds comply with DHS’ accountable property policy
and procedures.

Recommendation #11: Determine the extent to which reimbursements from FEMA included costs
for acquisition of accountable property items that were not turned over to FEMA, and either forward
those property items to FEMA or refund the associated amount.

Recommendation #12: Require adoption of a property receipt process, such as that included in
FEMA’s guidance, for the issuance of accountable property from inventory at disaster field
command locations.

                                                                                                        23
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix B
Recommendations




Recommendation #13: Augment existing instructions found in FEMA’s “Mission Assignment
Billing and Reimbursement Checklist” by developing and including proforma examples of billing
submissions that would meet its criteria for reimbursement of incurred costs or include examples of
previously submitted bills that FEMA has determined to be satisfactory.

Recommendation #14: Develop and provide training to the cognizant management and staff at
each DHS component agency on the nature and extent of documentation requirements for FEMA’s
reimbursement of performing agencies’ incurred costs. This training could take the form of on-line
videos with audience question and answers, frequently asked questions and answers, or other
instruments to promote clarity and understanding.

Recommendation #15: Require that primary agencies for mission assignments include provisions
in their interagency agreements with support agencies for receipt of adequate documentation to
support reimbursement from FEMA. Stipulate that primary agencies receive and confirm the
acceptability of this documentation prior to approving payments to subtasked or supporting agencies.




                                                                                                        24
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix C
Associated Audit Reports




OIG-08-80	        U.S. Customs and Border Protection’s Management of 2005 Gulf Coast
                  Hurricanes Mission Assignment Funding; U.S. Department of Homeland Security
                  Office of Inspector General

OIG-09-34	        U.S. Coast Guard’s Management of 2005 Gulf Coast Hurricanes Mission
                  Assignment Funding; U.S. Department of Homeland Security Office of Inspector
                  General

OIG-09-22	        U.S. Immigration and Customs Enforcement’s Management of 2005 Gulf Coast
                  Hurricanes Mission Assignment Funding; U.S. Department of Homeland Security
                  Office of Inspector General

OIG-09-23	        National Communications System’s Management of 2005 Gulf Coast Hurricanes
                  Mission Assignment Funding; U.S. Department of Homeland Security Office of
                  Inspector General




                                                                                                        25
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to Draft Report




                                                                                                       26
     Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to Draft Report



                                 USM Response Audit Recommendations

Recommendation #1: Ensure DHS component agencies develop and have in place, contracts to
provide the type and scale of support that may be necessary to support future disaster response
activities.

Concur: Since the 2005 Hurricane season, DHS has undertaken many corrective actions. FEMA has
awarded a series of response-ready, prepositioned contracts that include the appropriate scalability
needed to respond to a myriad of potential disasters. There are currently seventy-one (71) response-
ready contracts in place; able to provide a variety of good and services, including, but not limited to:
damage inspection services; crisis counseling; IT hardware and software, satellite airtime, plus
infrastructure management; temporary housing and related management services; mail service; tarps
and plastic sheeting; food catering services; air and ground ambulance services; railroad
transportation services; generators and maintenance; logistic support services; base camp support
services; and trucks. Additionally, the Department has access to a variety of GSA Federal supply
schedule contracts that can be accessed as needed to provide additional good and services in an
expedited fashion. The Department of Homeland Security stands prepared and ready to meet the
challenges of future disaster response requirements. Thus, the Department believes that this
recommendation has already been fully addressed and no further action is necessary.

Recommendation #2: Require that all procurement vehicles contain standard clauses and provisions
that are relevant for the specific type of procurement.

Concur: The Department has taken positive actions to ensure appropriate standard clauses are
included all procurements, including those contained in future Mission Assignment procurements.
DHS Components are required to conduct their procurement actions in accordance with the Federal
Acquisition Regulation (FAR), Chapter 1 of Title 48 of the Code of Federal Regulations. Further,
DHS Components procurement actions must comply with the Department-level Homeland Security
Acquisition Regulation (HSAR). Additionally, supplemental procurement guidance is provided
within the Department-level Homeland Security Acquisition Manual (HSAM). All of these
resources collectively provide the requirements to include standard provisions and clauses needed
for each specific type of procurement. Further, OCPO continuously reviews and improves the
HSAR and HSAM based upon FAR changes; lessons-learned culled from procurement oversight
reviews; audit findings; and, input received from the Components. Thus, the Department believes
this recommendation has already been fully addressed and no further action is necessary.

Recommendation #3: Establish adequate internal control procedures to monitor agency performance
and underlying agreements to ensure that payments are made only for services provided within the
performance period and allowable timeframes authorized by the mission assignments.

Recommendation #4: Establish adequate internal control procedures to monitor contractor
performance and ensure that they are effectively implemented to preclude submission of
unsupported vendor invoices.


                                                                                                         27
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to Draft Report



Concur with Recommendations #3 and #4: Since the 2005 Hurricane season, DHS has established,
and is continuously improving, a robust Contracting Officer’s Technical Representative (COTR)
program that is integral to the Department’s internal control procedures with respect to adequately
monitoring contractor performance. In accordance with the Office of Federal Procurement Policy’s
guidance, the Department requires that its COTRs be trained to professional business and technical
competencies that will best equip them to perform their responsibilities. In accordance with DHS
Appropriations law, the Department requires forty hours of initial COTR training before a candidate
can begin serving as a COTR: This requirement represents a higher standard than that which is
required by other civilian agencies. Further, the Department requires 40 hours of biennial skills
maintenance and currency training to ensure that its COTRs stay trained and current in procurement
and program issues; consequently, without completing the biennial training requirements, DHS
COTRs are not eligible for continued service. Annual procurement ethics training is also mandatory
for all DHS COTRs. Of note, DHS has significantly increased the availability of no-cost
acquisition-related training for which COTRs may register and complete. DHS currently has 260
acquisition-related classes scheduled for FY2009 including 37 different resident courses; notably,
the FY2009 class offerings represent a five-fold increase over FY2008 course offerings, and, COTR-
relevant class offerings outside of DHS are also available. DHS continues to invest heavily in its
COTR cadre to ensure proper support of the DHS acquisition mission.

DHS has mature processes with appropriate checks and balances to ensure that unsupported invoices
are not paid. Authorized officials within DHS Components currently have the authority to reject any
unsupported invoices based upon existing internal control procedures; further, towards this end,
DHS has recently implemented an automated invoice processing system, “WebView,” that
streamlines and makes more efficient, timely invoice processing. Moreover, contracting officers,
with the support of the technical representatives which they appoint, are assigned the responsibility
to monitor the contractors’ performance, and to review and either accept or reject contractors’
invoices. As such, invoices submitted to DHS financial offices are not paid without review and
approval by the responsible contracting officer and/or the duly appointed technical representative.
Additionally, invoice processing at DHS is subject to the provisions of the Prompt Payment Act,
which prescribes timelines for reviewing and accepting or rejecting contractor invoices, and includes
financial incentives to the Department for expedited processing of contractor invoices.

The HSAM also includes language advising contracting officers to utilize the services of the Defense
Contract Audit Agency to review vouchers for cost reimbursement contracts where practical.
Finally, as part of its oversight function, during FY2009 OCPO is conducting a special review of
DHS invoicing policies and procedures to determine if and to what extent any improvements are
needed. Additionally, FEMA will provide an added layer of control by identifying bills received
outside the performance period and report to DHS those bills.

Recommendation #5: Enforce the recording of all mission assignment funding authority and related
obligations and expenditures in agency budgetary and financial management systems as transactions
occur to minimize the risk of incurring expenditures in excess of funding limits and to preclude the
processing of improper payments


                                                                                                        28
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to Draft Report



Concur: While this is primarily a component responsibility, the Office of Financial Management
will be requiring components to provide OFM their plans as to how they plan to record all mission
assignment funding authority and related obligations and expenditures in agency budgetary and
financial management systems as transactions occur, also issuing guidance on this issue, track
financial activity during future major response efforts, similar to the 2005 Gulf Coast Hurricanes,
and during these events require component CFOs to certify that mission assignment obligations and
expenditures are recorded properly.

Recommendation #6: Ensure that field command locations and financial management personnel are
trained in the appropriate use of budget object codes and the processing of transactions.

Concur: While this is primarily a component responsibility, the Office of Financial Management
will require components to develop training materials and training plans and to provide training to its
respective field command locations and financial management personnel. This will ensure that the
field personnel are prepared to process financial activity related to mission assignment
procurements.

Recommendation #7: “Develop and implement a standard for appropriate documentation to support
mission assignment expenditures and enforce DHS’ record retention policy”

Concur: DHS concurs with the recommendation for standardized records management requirements
to include enforcement of the DHS’ record retention policy. Predominately the areas of concern
dealt with financial transactions, authorizations, and the retention of those documents. The rules and
regulations to include retention have been established and standard throughout the Federal
government. Purchase card documentation is and has been required by the General Records
Schedules (GRS) to be retained for 6 years and 3 months regardless of the agency, mission, or
circumstances requiring the purchase transaction. It was not a lack of a DHS standardized records
management requirement, but rather a lack of adherence to long established government-wide
procedures and processes for purchase card transactions causing the irregularities.

Not withstanding, a standardized record and document management program must be established
within DHS and several steps have been taken to move toward that direction. DHS is a
conglomerate made up of legacy and modern programs, compounded by several factors; one
includes information technology, disparate systems and its growing data. On December 15, 2005
NARA issued bulletin 2006-02 requiring all Federal agencies to identify and schedule information
systems that were in steady state operations and mixed life-cycle stages as of December 17, 2005.
These systems were required to have NARA approved schedules by September 30, 2009. DHS is
achieving this requirement through assessments, interviews, and scheduling of all information
systems and portals beyond the NARA threshold of December 17, 2005 by scheduling all systems.
DHS is in the process of releasing a revised Management Directive 0141 “Records Management” as
well as 0141-01 “Records Management Handbook” that establishes a department-wide standard for
identifying, developing, and scheduling records throughout the department. In addition, DHS
Records Management is in the process of developing management controls and reviews to measure
and report compliance with the revised Directive and Handbook. Lastly, DHS is in the planning

                                                                                                        29
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to Draft Report



stage of developing an Electronic Records Management System that will streamline information
systems, records and document management throughout the Department. The combination of these
efforts will greatly enhance DHS’ ability to accurately capture and retain vital information during
normal business, times of crisis, and in COOP situations.”

Additionally, FEMA will assist in developing/defining the policy that prescribes the appropriate
documentation to support mission assignment expenditures. We will work with OMB to approve
the concept that FEMA should/could rely on the other Federal Agencies/DHS Component internal
controls whereby allowing minimum support documentation. FEMA will develop a statistical
sampling program to test the bills.

Recommendation #8: Implement effective control processes for ensuring that all goods and services
provided in support of mission assignments are validated as received and acceptable prior to
approving payment for them.

Recommendation #9: Ensure that receipt and acceptance of goods and services are documented
fully, and the associated supporting documentation is retained.

Concur with Recommendations #8 and #9: While this is primarily a component responsibility, the
Office of Financial management will be issuing guidance on the issue on the receipt and acceptance
for goods and services for all DHS procurements, track financial activity during future major
response efforts, similar to the 2005 Gulf Coast Hurricanes, and during these emergencies, have
components CFOs certify that receipt and acceptance of goods and services are documented fully,
and the associated supporting documentation is retained. .

Recommendation #10: Implement controls to ensure that all DHS component agencies acquiring
accountable property with mission assignment funds comply with DHS’ accountable property policy
and procedures;

Concur. The recommendation to “implement controls” in this area, as well as in others related to
asset management of personal property and consumables is, however, a long standing issue. The
establishment of an effective management control protocol requires the ability to monitor
compliance with those controls, ideally through an automated process, but otherwise through a
manual review process, i.e., additional staff.

As is currently configured, only ICE has a personal property asset system visible to offices within
USM; the visibility does not extend to the management of ICE-consumables. CBP, USCG and
FEMA each use standalone asset systems, with various degrees on integration to their procurement
and financial systems. Offices within USM have no visibility into any of these systems, nor to the
consumables systems supporting these Components. OCFO is leading the TASC “Shared Baseline”
initiative, calling for the integration of asset management systems, financial systems and
procurement systems across the department. When complete, the initiative will provide the
automated tools for monitoring performance in the majority of actions cited in the review. The
“shared baseline” will not be a reality however, for a minimum of 3 years and, more likely, some 7

                                                                                                        30
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to Draft Report



to 9 years into the future.

Implementing and monitoring controls will require additional staffing, ideally through a combination
of contractor and federal additions to the management controls unit within OCAO/ALM.
 Envisioned is a fairly significant level of additional staff that would monitor performance in these
areas throughout the year and would, during FEMA peak operations seasons, be infused with
additional contractor staff to monitor field operations related to emergency response. As “shared
baseline” became a reality and the ability to manage controls in an automated manner grew, the roles
of the federal employees managing these controls over administrative functions would shift to take
advantage of that automation, and reliance on contractors would decline proportionally. Absent that
additional staffing, there is no realistic way to monitor controls until the shared baseline project
approaches implementation on a scale sufficient to bring each of the involved Components into a
single data system. At a minimum, and depending on the size and structure of the Management over
Administration Functions group envisioned here, recommendations 3, 4, 8 and 9 would also be
addressed.

Recommendation #11: Determine the extent to which reimbursements from FEMA included costs
for acquisition of accountable property items that were not turned over to FEMA and either forward
those property items to FEMA or refund the associated amount and;

Concur. The need to establish accountability over these high value assets is self-evident. Identifying
those assets would however, require a detailed audit of all material purchases conducted with the
Mission Assignment Funding program to determine which procurements involved accountable assets
of any type, a review of those procurements to determine inventory accuracy, a review of the
disposition of assets during and after the program and then an audit to determine which assets were,
and were not returned to FEMA and for which FEMA paid a reimbursement. Implementation of
this recommendation is contingent on the authority to hiring of additional staffing or the utilization
of contractors to conduct this series of audits.

Recommendation #12: Require adoption of a property receipt process, such as that included in
FEMA guidance, for the issuance of accountable property from inventory at disaster field command
locations.

Concur: The recommendation calls for the establishment of one specific control of the general
controls recommended in Recommendation #10. Establishing a control is a relatively easy task.
However, doing so falls under the same challenges discussed in responding to Recommendation #10;
absent an automated system, a system we know will not be available for at least 3, and more likely, 7
to 9 years, additional staff is required to monitor compliance. In the interim, FEMA can help
provide guidance for property.

Recommendation #13: Augment existing instructions found in FEMA’s Mission Assignment
Billing and Reimbursement Checklist by developing and including proforma examples of billing
submissions that would meet criteria for reimbursement of incurred costs or include examples of
previously submitted bills that FEMA has determined satisfactory:

                                                                                                         31
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix D
Management Comments to Draft Report




Concur: In conjunction with FEMA, OCFO will develop billing criteria and provide examples of
acceptable bills.

Recommendation #14: Develop and provide training to the cognizant management and staff at each
DHS component agency on the nature and extent of documentation requirements for FEMA’s
reimbursement of performing agencies’ incurred costs. This training could take the form of on-line
videos with audience question and answers, frequently asked questions and answers, or other
instruments to promote clarity and understanding:

Concur: In conjunction with FEMA, OCFO will develop a workshop to discuss Mission Assignment
issues and best practices, and will partner with FEMA to train DHS components.

Recommendation #15: Require that primary agencies for mission assignments include provisions in
their interagency agreements with support agencies for receipt of adequate documentation to support
reimbursement from FEMA. Stipulate that primary agencies receive and confirm the acceptability of
this documentation prior to approving payments to subtasked or supporting agencies.

Concur: The Office of Financial Management will be issuing guidance requiring agencies include
provisions in their interagency agreements with support agencies for receipt of adequate
documentation and develop procedures to review the adequacy of documentation prior to approving
payments.




                                                                                                        32
      Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Appendix E
Report Distribution



Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff of Operations
Chief of Staff for Policy
Acting General Counsel
Executive Secretariat
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs

Commissioner, U.S. Customs and Border Protection
CBP Audit Liaison

Commandant, U.S. Coast Guard
U.S. Coast Guard Audit Liaison

Assistant Secretary, U.S. Immigrations and Customs Enforcement
ICE Audit Liaison

Under Secretary, National Protection and Programs Directorate
Assistant Secretary, Office of Cybersecurity and Communications
Manager, National Communications System
National Protection and Programs Directorate Audit Liaison

Administrator, Federal Emergency Management Agency
Assistant Administrator, Disaster Operations Directorate, FEMA
FEMA Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




                                                                                                         33
       Consolidated Report on DHS’ Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
